TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Increased Manageria/ Attention /s Needed to
                Ensure Taxpayer Accounts Are Monitored to
                  Detect Unauthorized Emp/oyee Accesses



                                           July 24,2006

                              Reference Number: 2006-20-111




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
 Redaction Legend:
 3d = Identifyrng Information - Other Identifying Information of an Individual or Individuals


 Phone Number / 202-927-7037
 Email Address / Bonnie.Hea/d@igta. treas.gov
 Web Site      / http:Jwww. tigta-gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




    TREASURY INSPECTOR GENERAL.
      FOR TAX ADMIYISTRATIOX




1                                                    July 24,2006


I    MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                    DEPUTY COMMISSIONER FOR SERVICES AND

~    FROM:
                    ENFORCEMENT
                                  -v?M
                                  Michael R. Phillips
                                                     n.-3+
                                  Deputy Inspector General for Audit
I    SUBJECT:                     Final Audit Report - Increased Managerial Attention Is Needed to
                                  Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
                                  Employee Accesses ( ~ u d i#t 200520034)

     This report represents the results of our review to determine whether Internal Revenue Service
     (IRS) management and security staffs were adequately reviewing online Integrated Data
     Retrieval System (IDRS) reports to detect unauthorized accesses to taxpayer accounts.

     synopsis
     The IDRS is a mission critical system containing sensitive information such as taxpayers' names,
     Social Security Numbers, birth dates, addresses, filing statuses, exemptions, and income. This
     System is used by IRS employees to research and update taxpayer data. Because of the sensitive
     nature of its data, the IDRS routinely generates audit trail' information. The IRS and Treasury
     Inspector General for Tax Administration use the audit trail information to identify unauthorized
     accesses to taxpayer accounts, thus ensuring employees who violate the Taxpayer Browsing
     Protection Act of 1997' are identified and appropriate employee actions are taken.




     'An audit trail is a chronological record of system activities that allows for the reconstruction, review, and
    examination of a transaction from inception to final results.
      26 U.S.C.A. $5 7213,7213A, 7431 (West Supp. 2003). This Act makes it a criminal offense to access or inspect
    tax information without proper authorization. This legislation focuses on the IRS ensuring its employees access
    taxpayer data only for official purposes.
                           Increased Managerial Attention Is Needed to Ensure
                               Taxpayer Accounts Are Monitored to Detect
                                   Unauthorized Employee Accesses



In 2002, the IRS incrementally deployed the IDRS Online Reports Services (IORS) system3to
reduce the costs of printing and distributing paper reports of IDRS audit trail information to IRS
personnel responsible for identifying unauthorized accesses. However, audit trail information
fi-om the IORS system was not always being reviewed and
investigated to detect unauthorized accesses and
noncompliance with security controls.
Although 9 of the 10 campus4data security staffs carried
out their security-related responsibilities for reviewing
IDRS Security Reports using the IORS system, a majority
of business unit managers are not performing their
responsibilities to investigate potential unauthorized
accesses to IDRS accounts and noncompliance with
security controls. As a result, employees may be browsing their spouses' or other employees'
tax information with little chance of detection. In addition, employees may be knowingly or
unknowingly violating current security procedures that could enable unauthorized persons to
access sensitive taxpayer in


Using the IORS system, IRS business unit managers are responsible for reviewing and certifying
four IDRS Security Reports. On average, only 42 percent of IRS business unit managers
certified their IDRS Security Reports in September 2005. Individual campus certification rates6
ranged from a high of 75 percent to a low of 15 percent, and only 36 percent of these
certifications were performed timely. The Mission Assurance and Security Services (MA&SS)
organization and IRS business unit management have not sufficiently emphasized the need for
business unit managers to review the IDRS Security Reports produced by the IORS system. In
addition, managers were not held accountable for reviewing the IDRS Security Reports on a
regular basis, and the level of emphasis varied among the data security staffs located at the IRS
campuses.


3
  The IORS system is a web-based application that provides business unit managers and data security staffs online
access to security reports based on the IDRS audit trail information.
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. IRS Computing
Centers support tax processing and information management through a data processing and telecommunications
infrastructure.
  The IRS conducts awareness briefings to better focus agency-wide attention on preventing the willhl unauthorized
access and inspection of taxpayer records, which it refers to as UNAX.
6
  Campus certification rates are based on certification rates of all Area Oftices serviced by a particular campus.
Area Ofices are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
                                                                                                                  2
                                Increased Managerial Attention Is Needed to Ensure
I
1                                   Taxpayer Accounts Are Monitored to Detect
                                        Unauthorized Employee Accesses
          ---



    Due to the low certification rates nationally, we have little confidence that IRS managers are
    detecting potential unauthorized accesses of taxpayer information by employees. Additionally,
    the IRS cannot ensure employees are complying with the security controls established to protect
    the IDRS.
    During our visits to the IRS Campuses in Brookhaven, New York, and Austin, Texas, we found
    the compliance levels were directly affected by the amount of emphasis provided by the local
    data security staffs. For example, the data security staff at the Brookhaven Campus made the
    effort to communicate with employees at the Campus and in the Area Offices, provide local
    IORS system users with training and awareness information, and notify senior business unit
    managers when subordinate managers did not review IDRS Security Reports timely. As a result,
    the certification rate was 75 percent. Conversely, the Austin Campus was not providing
    adequate emphasis over the IORS system program, and its compliance rate was only 15 percent.
    Systemic problems with the IORS system also contributed to the low levels of compliance.
    These problems hindered business unit managers from adequately reviewing and timely
    identifying potential unauthorized accesses to employees' and their spouses' accounts and
    noncompliance with security controls on the IDRS. For example, certain IORS system users
    were unable to retrieve IDRS Security Reports, and slow response times hindered business unit
    managers' reviews of IDRS Security Reports.
    The IRS paid a contractor $2.4 million over 3 years to develop the IORS system and took
    incremental delivery of it in 2002, although the IORS system did not completely meet the IRS'
    requirements. Additional system enhancements to address deficiencies were to be made in the
    next version of the IORS system, originally scheduled for deployment in December 2005.
    However, the MA&SS organization determined the contractor was unable to develop the new
    version of the IORS system according to the IRS' needs, and the contract, which expired in
    September 2005, was not renewed.

    Recommendations
    We recommended the Chief, MA&SS, (1) emphasize to the IRS business units the need to
    review electronic IDRS Security Reports using the IORS system and (2) eliminate the
    requirement to certify the monthly Security Profile Report7to reduce managerial burden.
    Additionally, we recommended the Deputy Commissioner for Operations Support and the
    Deputy Commissioner for Services and Enforcement ensure business unit managers' operational
    review requirements are updated to include a step to validate the certification of IDRS Security
    Reports. Business unit managers should then be held accountable for meeting their
    security-related responsibilities.

    7
     The Security Profile Report is a monthly and quarterly IDRS security report that identifies employees' capabilities
    on the IDRS and occurrences when employees use a command that is not within their user profiles.
                                                                                                                       3
                          Increased Managerial Attention Is Needed to Ensure
i                             raxpayer Accounts Are Monitored to Detect
                                   Unauthorized Employee Accesses



    To complete development of the next version of the IORS system, we recommended the Chief,
    MA&SS, place priority on hiring a new contractor and prioritize and address the systemic
    weaknesses within a reasonable time period.

    Response
    The IRS agreed with three of the four recommendations in our report and disagreed with one. To
    ensure IDRS Security Reports are reviewed in the future, the IRS will implement a process to
    monitor and review the compliance rate of IRS business units. Actions will be taken to require
    all IRS business units to include the results of MA&SS organization quarterly compliance
    reports in all management operational reviews to identify and enforce consequences for
    noncompliance. The IRS will address all the systemic weaknesses connected with the IORS
    system and will obtain contractual support to ensure all weaknesses are corrected. The IRS
    disagreed with our recommendation that certification of the monthly Security Profile Report be
    eliminated, due to the length of time between the quarterly and monthly reporting periods.
    Management's complete response to the draft report is included as Appendix IV.

    Office of Audit Comment
    In our discussion draft report, we initially recommended the IRS eliminate the quarterly Security
    Profile Report because the IRS already had a requirement to certify the monthly versions of this
    Report. During the closing conference on the discussion draft report, MA&SS organization
    representatives requested that we instead recommend eliminating the monthly Security Profile
    Report, to reduce the burden to IRS managers. We concurred with the request and revised our
    recommendation accordingly. Management's disagreement with this recommendation is
    contradictory to what was discussed at our closing conference. We continue to believe the IRS
    should take whatever actions are needed to ensure the security and privacy of taxpayer data on
    the IDRS.
    Copies of this report are also being sent to the IRS managers affected by the report
    recommendations. Please contact me at (202) 622-6510 if you have questions or
    Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
    (202) 622-85 10.




                                                                                                    4
                                     Increased Managerial Attention Is Needed to Ensure
i
                                         Taxpayer Accounts Are Monitored to Detect
                                             Unauthorized Employee Accesses




                                                    Table of Contents


    Background ......................................................................................................        Page 1

    Results of Review ................................................... ..................... ..............,.....Page               3
              Audit Trail Information Is Not Always Being Reviewed and
              Investigated to Identify Unauthorized Accesses to Taxpayer
              Accounts ........... ......... ................ ......... .................... .............. ...... ......... ..... Page 3
                         Recommendations 1 and 2: ............................................ a g e 8
                         Reconlmendation 3: ................................................... Page 9
              Systemic Problems Are Hindering Management Reviews for
              Unauthorized Accesses to Taxpayer Accounts ........................................... Page 9
                         Reconlmendation 4: .................................. ............P a g e 11


    Appendices
              Appendix I - Detailed Objective, Scope, and Methodology ....................... Page 12
              Appendix I1 - Major Contributors to This Report ...................................... Page 14
              Appendix I11 - Report Distribution List ............ ......................................... Page 15
              Appendix IV - Management's Response to the Draft Report ..................... Page 16
            Increased Managerial Attention Is Needed to Ensure
l
                Taxpayer Accounts Are Monitored to Detect
                    Unauthorired Employee Accesses




                      Abbreviations

    IDRS          Integrated Data Retrieval System
    IORS          IDRS Online Reports Services
    IRS           Internal Revenue Service
    MA&SS         Mission Assurance and Security Services
    TIGTA         Treasury Inspector General for Tax Administration
    UNAX          Unauthorized Access to Taxpayer Information
                           Increased ManagerialAttention Is Needed to Ensure
                               TaxpayerAccounts Are Monitored to Detect
                                   Unauthorized Employee Accesses




                                            Background

The Taxpayer Browsing Protection Act of 1997' made it a criminal offense to access or inspect
tax information without proper authorization. A person convicted of any such violation shall be
dismissed and be subject to a fine of up to $1,000, imprisonment of not more than 1 year, or
both. This legislation was essentially focused on the Internal Revenue Service (IRS) to ensure its
employees access taxpayer data only for official purposes. One of the main systems used by IRS
employees to research and update taxpayer data is the Integrated Data Retrieval System (IDRS).
The IDRS is a mission critical system that contains sensitive information such as taxpayers'                  ,


names, Social Security Numbers, birth dates, addresses, filing statuses, exemptions, and income.
Because of the sensitive nature of its data, the IDRS routinely generates audit trailZinformation
that can be used to detect potential unauthorized accesses to taxpayer accounts. The IRS refers
to the unauthorized access of taxpayer information as UNAX and provides yearly training to all
employees to protect against it. Data security staffs located in the 10 IRS campuses3and
business unit managers located throughout IRS offices must investigate accesses to employees'
and their spouses' accounts to determine whether the accesses were made for business reasons.
In addition, business unit managers should review audit trail information to detect
noncompliance with security controls. For example, multiple failed attempts to access an
account could indicate an unauthorized person was
attempting to guess a password to gain access to sensitive
data. Business unit managers should also review audit           system is a web-based application
trail information to ensure employees have access to only           that provides business unit
the computer command codesqhey need to carry out their           managers and data security staffs
business responsibilities.                                         online access to IDRS Security
                                                                         Reports based on the IDRS audit
For many years, IRS data security staffs and business unit               trail information.
managers received IDRS audit trail information in
computer-generated paper reports. To reduce the costs of
printing and distributing these reports and to improve the effectiveness of reporting results of


' 26 U.S.C.A. $6 7213,7213A, 7431 (West Supp. 2003).
  An audit trail is a chronological record of system activities that allows for the reconstruction, review, and
examination of a transaction fiom inception to final results.
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. IRS Computing
Centers support tax processing and information management through a data processing and telecommunications
infrastructure.
  These are various IDRS entry codes employees can use to research tax account information and update tax
accounts.
                                                                                                         Page 1
                            Increased Managerial Attention Is Needed to Ensure
                                TaxpayerAccounts Are Monitored to Detect
                                    Unauthorized Employee Accesses



management reviews, the IRS deployed the IDRS Online Reports Services (IORS) system
in 2003. The IORS system gives business unit managers the ability to retrieve, review, and
comment on IDRS Security Reports electronically. The IORS system report content is used to
identify authorized IDRS users who are attempting to perform unauthorized accesses,
unauthorized attempts to access the IDRS, and users who need additional training because of
repeated errors that could compromise the security of the System. Business unit managers can
also use the IORS system to request archived IDRS Security Reports for data analyses and to
initiate and approve IDRS security forms.
The Mission Assurance and Support Services (MA&SS) organization is responsible for
overseeing compliance with the IORS system and has direct responsibility over data security
staffs located in the IRS campuses. Business units are responsible for ensuring their managers
comply with IORS system procedures by investigating potential security violations and taking
appropriate corrective actions. The data security staffs in each campus also monitor business
unit managers in the campuses and the offices supported by those campuses to ensure IDRS
Security Reports produced by the IORS system are properly reviewed. For example, the IRS
Campus in Brookhaven, New York, is responsible for monitoring the Boston Area Office.'
In addition to IRS monitoring of the IDRS, the Treasury Inspector General for Tax
Administration (TJGTA) Office of Investigations Strategic Enforcement Division conducts
comprehensive proactive reviews of IDRS audit trail information to identify other unauthorized
accesses, such as unauthorized accesses of tax information of celebrities, political figures, and
employees' neighbors, former spouses, and relatives. Over the past 2 fiscal years, the TIGTA
initiated 990 UNAX cases. All of the reviews of IDRS audit trail information performed by the
IRS and the TIGTA should provide assurance that employees who violate the Taxpayer
Browsing Protection Act of 1997 are identified and appropriate employee actions are taken.
This review was performed at the Brookhaven and Austin, Texas, Campuses; the
Boston, Massachusetts, and Houston, Texas, Area Offices; and the MA&SS organization office
in New Carrollton, Maryland, during the period June 2005 through February 2006. These
locations were selected based on the campuses with the highest and lowest IDRS Security Report
certification rates. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix 11.




 Area Offrces are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
                                                                                                              Page 2
                        Increased Managerial Attention Is Needed to Ensure
                            Taxpayer Accounts Are Monitored to Detect
                                Unauthorized Employee Accesses
-                                                -

                                  Results of Review

Audit Trail Information Is Not Always Being Reviewed and
Investigated to Iden,tify Unauthorized Accesses to Taxpayer Accounts
The data security staffs in 9 of the 10 campuses carried out their security-related responsibilities
for reviewing IDRS Security Reports produced by the IORS system. However, a majority of
business unit managers are not performing their
responsibilities to investigate potential unauthorized
accesses to IDRS accounts and noncompliance with
security controls. As a result, employees may be               Security Reports. As a result,
browsing their spouses' or other employees' tax                    IRS employees may be
                                                                browsing their spousesyor
accounts with little chance of detec                          other employees' tax accounts
site visits, we found l ( d )                                  with little chance of detection.

clear violation of the UNAX program.
                              - -      In addition,
employees may be knowingly or unknowingly violating current security procedures that could
enable unauthorized persons to access sensitive information.

Business unit manaaers are not alwavs reviewina IDRS Securitv R e ~ o r t son the
IORS system
IRS business unit managers are responsible for reviewing and certifying the following four IDRS
Security Reports using the IORS system.
       Sensitive Access Report - Issued weekly: identifies IRS emplo~eeswho have accessed
       another emplo~ee'sor an employee's spouse's tax accounts. The IRS requires business
       -
       unit managers to determine whether employees made these accesses for work-related
       reasons. Business unit managers must take appropriate steps, including research on the
       IDRS and review of case assignment files, to identify the employees' reasons for the
       accesses. If needed, business unit managers may also interview the employees.
       Security Violations Report - Issued weeltly: identifies unsuccessfil logon attempts and
       employees who left their computers without logging off. Business unit managers should
       discuss these violations with their employees to determine whether unauthorized persons
       were trying to guess their passwords and whether the employees need additional training
       on using the IDRS.
       IDRS Security Profile Reports (2 reports) - Issued monthly and quarterlv: identifv
       employees' capabilities on the IDRS and attempted accesses to taxpayer accounts using
                                                                                             Page 3
                               Increased Managerial Attention Is Needed to Ensure
I
                                   Taxpayer Accounts Are Monitored to Detect
                                       Unauthorized Employee Accesses



             unauthorized command codes. Business unit managers should review these Reports to
             ensure employees only have the access capabilities they need to perform their
             responsibilities and to determine whether all attempted accesses to taxpayer accounts
             using unauthorized command codes were unintentional errors.
    The IRS requires business unit managers to review and certify the weekly IDRS Security Reports
    within 14 calendar days of receipt and the monthly and quarterly Security Profile Reports within
    28 calendar days of receipt. The IORS system determines whether business unit managers are
    responding timely to the Security Reports and sends email notifications to managers who have
    not responded within the specified period.
    For September 2005, only 42 percent of IRS business unit managers certified their IDRS
    Security Reports. ~ndividualcampus certification rates for September 2005 ranged from a high
    of 75 percent to a low of 15 percent. Only 36 percent of these certifications were performed
    timely. Figure 1 presents the compliance levels for each of the 10 IRS campuses. The results for
    each campus include the certification and timeliness rates for all IRS offices supported by the
    data security staffs in the campuses.
                         Figure I : National IORS System Compliance Levels




                                 MA&SS organization's analyses.6



    6
     The national IORS system compliance levels were computed manually by the MA&SS organization. Additionally,
    IDRS Security Reports issued to managers for certification with no violations reported were not used in the analysis.
                                                                                                                Page 4
                           Increased Managerial Attention Is Needed to Ensure
I
,                              Taxpayer Accounts Are Monitored to Detect
                                    Unauthorized Employee Accesses



    The certification rates and timeliness rates were consistently low for the four IDRS Security
    Reports that business unit managers are required to review. Figure 2 reflects the September 2005
    compliance levels for the four Reports.
                     Figure 2: IORS System Compliance Levels by Report




                         Source: September 2005 compliance levels based on the
                         MA&SS organization S analyses.

    Two of the Reports (the monthly and quarterly IDRS Security Profile Reports) provide the same
    information but cover different time periods. Reviews of the quarterly Security Profile Reports
    were the lowest among all four IDRS Security Reports. IRS business unit managers advised us
    that either the certification of the monthly or the quarterly Security Profile Report could be
    eliminated, or the Report results could be provided for informational purposes only.
    The MA&SS organization and IRS business units have not sufficiently emphasized the need for
    business unit managers to review IDRS Security Reports and have not held their managers
    accountable for reviewing these Reports on a regular basis. Due to the low certification rates
    nationally, we have little confidence that IRS managers are detecting all potential unauthorized
    accesses of taxpayer information. Additionally, without these reviews, the IRS cannot ensure
    employees are complying with the security controls established to protect the IDRS.
    We noted a wide disparity in the amount of emphasis provided by the data security staffs in the
    campuses. Specifically, we found the compliance levels for the Brookhaven and Austin
    Campuses were directly affected by the amount of emphasis provided by the local data security
    staffs. The data security staff in the Brookhaven Campus effectively communicated with
    employees at the Campus and in the Area Offices and notified senior business unit managers
    when subordinate managers did not review IDRS Security Reports timely. This information was
    shared with the manager responsible for certifying the Reports.
    The Brookhaven Campus data security staff also supported IORS system users through the use of
    several IORS system instructional materials, training lessons, and newsletters. Instructional aids
    were prepared to assist business unit managers in the review and certification of IDRS Security
    Reports. Limited IORS system training was developed locally and provided to employees on an

                                                                                               Page 5
                        Increased ManagennaIAttention Is Needed to Ensure
                            TaxpayerAccounts Are Monitored to Detect
                                Unauthorized EmpIoyee Accesses



as-requested basis. In addition, quarterly newsletters were issued to inform business unit
managers of important IORS system features and problems that hinder the review of IDRS
Security Reports. As a result, most Brookhaven Campus business unit managers regularly
reviewed IDRS Security Reports.
Conversely, the Austin Campus was not providing adequate emphasis over the IORS system 3(d)
program to ensure employees were reviewing IDRS Security Reports.              hab business
                                                                                      unit - ------.
managers we interviewed in the Houston Area Office had not reviewed any of the required
579 IDRS Security Reports in Fiscal Year 2005. The business unit managers indicated a
significant lack of emphasis and support on how to initially access the IORS system by the
Austin Campus data security staff.
Additionally, 104 (28 percent) of the 370 business unit managers at the Austin Campus had
never logged into the IORS system, although training was provided in 2003. Because these
business unit managers failed to log in, IORS system user accounts were not established.
As a result, business unit managers were not receiving IDRS Security Reports showing potential
inappropriate transactions and noncompliance with security controls for over 1,400 Austin
Campus employees. Because these IRS managers did not initially log into the IORS system,
IDRS Security Reports were not provided for these managers and could not be reviewed to
detect inappropriate activity. Figure 3 provides a breakout by function of the business unit
managers assigned to the Austin Campus who have never logged into the IORS system.
Figure 3: IRS Functional Managers Not Using the IORS System Austin Campus          -




               Source: The M d S S organization 's analyses, September 2005.




                                                                                              Page 6
                       lncreased Managerial Attention Is Needed to Ensure
                           Taxpayer Accounts Are Monitored to Detect
                               Unauthorized Employee Accesses



Most data securitv staffs certifv thev reviewed IDRS Securitv Regorts
On a daily basis, data security staffs located in each IRS campus are required to certify they have
reviewed the four IDRS Security Reports generated daily. Specifically, the Sensitive Access
Report identifies IDRS users with attempted and actual accesses to another employee's or an
employee's spouse's tax accounts. The three other Reports are designed to ensure the accuracy
of the IORS system and monitor overall usage by command codes.
For Fiscal Year 2005, data security staffs in each of the 10 IRS campuses certified 94 percent of
the IDRS Security Reports. Eighty-seven percent of these Reports were timely certified (within
7 calendar days of the managers' receipt of the Report). The Sensitive Access Report
certification rates ranged nationally from a high of 100 percent at the Andover, Atlanta, and
Kansas City Campuses to a low of 5 1 percent at the Memphis Campus. Figure 4 presents the
Fiscal Year 2005 Sensitive Access Reports compliance levels for each of the 10 IRS campus data
security staffs.
          Figure 4: National Sensitive Access Reports Compliance Levels
                                                    -
                     for Fiscal Year 2005 Data Security Staffs

                       1   IRS Campus
                                --
                       I 1 Andover
                                        1
                                        ,
                                        ?
                                         -
                                            Certification Rate
                                         -- - .
                                                  100%
                                                                 /r Timeliness
                                                                 ,----
                                                                 I

                                                                 I
                                                                         9990
                                                                                 ate
                                                                            , ; - --
                                                                                       I



The Memphis Campus certified only 24 (51 percent) of the 47 Sensitive Access Reports in
Fiscal Year 2005, and only 42 percent of the reports were timely reviewed. These Reports are
crucial for identifying users who attempted to access tax records of another employee or an
employee's spouse's account. These accesses are prohibited under the Taxpayer Browsing
Protection Act of 1997 and could indicate employees who are attempting to improperly alter

                                                                                            Page 7
                            Increased Managerial Attention Is Needed to Ensure
                                TaxpayerAccounts Are Monitored to Detect
                                    Unauthorired Employee Accesses



their own or their spouses' tax accounts. Although the IDRS should block such accesses, the
data security staffs are required to report the employees to the IRS Labor Relations Office7for
control and assignment to the employees' managers for an official response. In some instances,
if the access was inappropriate, the case should be referred to the TIGTA Office of
Investigations. We attribute the noncompliance at the Memphis Campus to a lack of local
emphasis and oversight by the MA&SS organization.

Recommendations
Recommendation I: The Chief, MA&SS, should coordinate with the business units and
place emphasis on the review of electronic IDRS Security Reports using the IORS system.
Periodic compliance reviews should be conducted to ensure the business units carry out their
roles and responsibilities to review IDRS Security Reports.
         Management's Response: The IRS agreed with this recommendation. The MA&SS
         organization will implement a semiannual monitoring and reporting process that will
         determine compliance of the IRS business units with requirements to review and certify
         IDRS Security Reports. IRS business units will be advised of their compliance.
Recommendation 2: The Chief, MA&SS, should eliminate the requirement to certify the
monthly Security Profile Report to reduce managerial burden because the data are captured in the
quarterly Security Profile Reports.
         Manacrement's Response: The IRS disagreed with this recommendation, stating that
         deferring the review of the Security Profile Report to only quarterly periods could result
         in various deficiencies going undetected for extended periods.
         Office of Audit Comment: In our discussion draft report, we initially recommended
         the IRS eliminate the quarterly Security Profile Report because the IRS already had a
         requirement to certify the monthly versions of this Report. During the closing conference
         on the discussion draft report, MA&SS organization representatives requested that we
         instead recommend eliminating the monthly Security Profile Report, to reduce the burden
         to IRS managers. We concurred with the request and revised our recommendation
         accordingly. Management's disagreement with this recommendation is contradictory to
         what was discussed at our closing conference. We continue to believe the IRS should
         take whatever actions are needed to ensure the security and privacy of taxpayer data on
         the IDRS.




7
  This is the IRS office that reviews proposed employee disciplinary actions and ensures actions are consistent and
in conformance with laws, rules, regulations, and prior judicial and appeal decisions.
                                                                                                             Page 8
                       Increased Managerial Attention /s Needed to Ensure
                           Taxpayer Accounts Are Monitored to Detect
                               Unauthorized Employee Accesses



Recommendation 3: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should ensure all business unit managers'
operational review requirements are updated to include a step to validate that all
IORS system-related reports are certified timely (by the manager or designee) and to hold the
business unit managers accountable for meeting their security-related responsibilities.
       Management's Response: The IRS agreed with this recommendation. A
       memorandum will be issued by the Deputy commissioner for Operations Support and the
       Deputy Commissioner for Services and Enforcement to all IRS Commissioners and
       Chiefs requiring all business units' operational reviews to include MA&SS organization
       quarterly IORS security compliance reports and to identify and enforce consequences for
       noncompliance.

Systemic Problems Are Hindering Management Reviews for
Unauthorized Accesses to Taxpayer Accounts
In addition to a lack of emphasis, we attribute some of the noncompliance by business unit
managers to systemic problems. These problems involve significant system access and software
issues, which have hindered managers' ability to review IDRS Security Reports timely using the
IORS system. The IORS system should effectively
facilitate the distribution, review, and accurate
validation of IDRS reports, and, when necessary,
responsive action to the contents of these reports.
The IRS paid a contractor $2.4 million over 3 years to
develop the IORS system. The IRS took delivery of
the IORS system incrementally starting in 2002 and
during 2003 relied on it to assist with the identification of unauthorized accesses and
noncompliance with security controls. Although the IORS system is operational, the following
systemic issues and problems are hindering business unit managers fiom adequately reviewing
and timely identifying potential unauthorized accesses to employees' and their spouses' accounts
and noncompliance with security controls on the DRS.

Svstem access issues
Slow response times have hindered business unit managers' reviews of IDRS Security
Reports. Several business unit managers we interviewed stated they had experienced significant
amounts of system downtime and slow IORS system performance. Business unit managers also
discussed the difficulty reviewing IDRS Security Reports on Mondays due to the large number
of users attempting to log into the IORS system. The IORS system application was moved to a
single server in August 2005 and users saw some improvement. An even more dramatic
improvement in performance was achieved when the MA&SS organization implemented

                                                                                         Page 9
                       Increased Managerial Attention Is Needed to Ensure
                           TaxpayerAccounts Are Monitored to Detect
                               Unauthorized Employee Accesses



automated maintenance routines in October 2005. The MA&SS organization stated that, in the
future, it will be providing its employees with database and web-server administration training
regarding procedures to optimize performance of the IORS system servers.
Certain IORS system users are unable to retrieve IDRS Security Reports. When they
attempt to retrieve the IDRS Security Reports, the IORS system logs them out and then displays
the IORS system login page. The problem occurs if the users connect to the IORS system web
site using a "shortcut" or "favorites" link they created while logged into the IORS system. Users
are instructed to go to the IORS system web site and log in when they experience this situation.
Some business unit managers are unable to access the monthly and quarterly IDRS
Security Profile Reports. On occasion, users receive an error message when they attempt to
retrieve these Reports. As an alternative, the MA&SS organization developed a program to run
every 3 minutes to recompile the IORS system database table that supports these Reports.
The IORS system issues "certification due" notices even when managers have no IDRS
Security Reports to review. The MA&SS organization suggested that users certify the blank
Reports to prevent an erroneous reminder notice. The Reports could be suppressed to minimize
management burden.

Software problems
A software problem in the IORS system application causes IDRS Security Reports to
display only the certifications that were input by the current manager. The certification
information will not appear if a Security Report was certified by someone else.
The IORS system feature to track certification and timeliness rates provides inaccurate
results when managers designate another manager to certify an IDRS Security Report.
Business unit managers in the Brookhaven Campus instead keep track manually using a locally
developed checklist of Security Reports they have certified.
A software problem allows IORS system user profiles and permissions to be transferred to
other business unit managers. Business unit managers are then able to view and certify other
business unit managers' and employees' security reports.

Mananement oversiqht issues
Business unit managers have the ability to review and certify their own security violations
without requiring a higher level of approval. Business unit managers' violations are displayed
on the same IDRS Security Report as those of their employees. According to the Brookhaven
Campus data security staff, the issue was discussed with the MA&SS organization and an
oversight feature was developed in the IORS system to address the problem. The feature allows
program managers to log into the IORS system to review violations committed by their business
unit managers. However, the use of this feature is voluntary, and only one program manager at
the Brookhaven Campus was using it. When business unit managers are allowed to approve
                                                                                         Page 10
                            Increased Managerial Attention Is Needed to Ensure
i
                                Taxpayer Accounts Are Monitored to Detect
                                    Unauthorized Employee Accesses



    their own violations, the IRS is offering managers unlimited access to taxpayer account data and
    allowing unauthorized accesses to go undetected.
    Most business unit managers are not using the IORS system proxy feature. The
    Brookhaven Campus data security staff discouraged its use because of system problems. The
    proxy feature should be used to assign another user to review reports when business unit
    managers are not available. Our interviews of 50 managers indicated users are not filly aware of
    the importance of this feature. For example, 1 managerp(d)                               1 and did not
    assign a proxy to review the security reports f o r ~ e m p l o y e e during
                                                                          s      the absence.
    During our review, the MA&SS organization began development of a web site to track the
    ongoing systemic issues with the IORS system. Business unit managers will be able to access
    the web site to obtain current information on problems with the application and on alternatives to
    use until the deficiencies are fixed. This web site became operational in April 2006.
    The IRS was aware the IORS system did not completely meet its requirements when it took
    incremental delivery in 2002. ~dditionalenhancements to address deficiencies were to be
    included in the next version of the IORS system, originally scheduled for deployment in
    December 2005. However, the MA&SS organization determined the contractor was unable to
    develop the new version of the IORS system according to the IRS' needs. The contract, which
    expired in September 2005, was not renewed, and deployment of the new version has been
    delayed.

    Recommendation
    Recommendation 4: The Chief, MA&SS, should place priority on hiring a new contractor to
    complete development of the next version of the IORS system. The systemic weaknesses with
    the IORS system should be prioritized and addressed within a reasonable time period.
           Management's Res~onse:The IRS agreed with this recommendation. The MA&SS
           organization is coordinating with the Chief Information Officer to transfer the
           responsibility of obtaining the technical contract for the IORS system. The MA&SS
           organization IDRS Security Program Office will prioritize the systemic weaknesses of
           the IORS system and monitor the process for timely implementation of systemic changes.




                                                                                                 Page 11
                            Increased Managerial Attention Is Needed to Ensure
                                TaxpayerAccounts Are Monitored to Detect
                                    Unauthorized Employee Accesses



                                                                                                     Appendix I

          Detaifed Objective, Scope, and Methodofogy

The overall objective of this review was to determine whether IRS management and security
staffs were adequately reviewing online IDRS' reports to detect unauthorized accesses to
taxpayer accounts. To accomplish our objective, we:
I.       Determined whether managers of IDRS users, designated p r ~ x i e sand, ~ unit security
         representatives3were carrying out their responsibilities for identifying potential
         unauthorized access violations by evaluating national IORS system4reports for all 10 IRS
         campu~es.~
         A. Evaluated the guidance, oversight, and training provided by the MA&SS organization
            to the field offices responsible for conducting security reviews to ensure adherence to
            applicable guidelines and criteria.
         B. Deteimined whether sufficient training on the IORS system had been timely provided
            to managers, designated proxies, and data security staffs.
         C. Determine whether data security staffs and business unit managers were complying
            with the requirements to review IDRS Security Reports to detect unauthorized
            accesses to taxpayer accounts. We reviewed national statistics for all
            10 IRS campuses and visited the Brookhaven, New York, and Austin, Texas,
            Campuses. We also visited the Boston, Massachusetts, and Houston, Texas, Area
            Offices6 and reviewed the IORS reports for Fiscal Year 2005 for 50 managers we



I
  The IDRS is the IRS computer system capable of retrieving or updating stored information; it works in conjunction
with a taxpayer's account records.
  The designated proxies review the security reports when the business unit managers are not available.
  Unit security representatives are individuals assigned by their business organizations to help ensure IDRS security
administration activities are properly performed for their IDRS users.
4
  The IORS system is a web-based application that provides business unit managers and data security staffs online
access to IDRS Security Reports based on the IDRS audit trail information. An audit trail is a chronological record
of system activities that allows for the reconstruction, review, and examination of a transaction from inception to
final results.
5
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. IRS Computing
Centers support tax processing and information management through a data processing and telecommunications
infrastructure.
6
  Area Offices are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
                                                                                                             Page 12
                           Increased Manageria/ Attention /s Needed to Ensure
                               TaxpayerAccounts Are Monitored to Detect
                                   Unauthorried Employee Accesses
       --


               judgmentally ~elected.~   We could not identify the population of managers due to
               systemic errors with the IORS system. The Area Offices were selected based on the
               Brookhaven and Austin Campuses, which had the highest and lowest IDRS Security
               Report certification rates, respectively.
            D. Contacted the Treasury Inspector General for Tax Administration Office of
               Investigations local offices before our visits to determine whether they had any
               ongoing investigations in the sampled offices.
11.         Determined whether the IORS system web-based application was operating effectively
            and met the needs of its users.
            A. Interviewed the program analyst and developers in the MA&SS organization to
               determine whether the IORS system application was working as intended.
            B. Determined the future plans for or enhancements to be made to the IORS system.
            C. Evaluated the weekly, monthly, and quarterly IDRS Security Reports to determine
               whether the information was presented in a clear and understandable format.
            D. Visited the Campuses and Area Offices with the highest and lowest IORS report
               certifications rates. The sites included the Brookhaven and Austin Campuses and the
               Boston and Houston Area Offices.
            E. Selected a judgmental sample of 50 business unit managers at the 4 locations visited.
               We could not identify the population of managers due to systemic errors with the
               IORS system. We interviewed the managers and the data security staffs at the
               Brookhaven and Austin Campuses to determine whether the IORS system operated
               effectively and met the needs of its users.




'We used judgmental sampling for Steps LC.and 1I.E. due to time constraints and availability of managers during
our site visits.
                                                                                                       Page 13
                      Increased Managerial Attention Is Needed to Ensure
                          TaxpayerAccounts Are Monitored to Detect
                              Unauthorized Employee Accesses



                                                                              Appendix II

                 MaNr Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Acting Director
Thomas Polsfoot, Audit Manager
Michelle Griffin, Senior Auditor
Abraham Millado, Senior Auditor
Jacqueline Nguyen, Senior Auditor
William Simmons, Senior Auditor




                                                                                    Page 14
                         Increased Manageria/ Attention Is Needed to Ensure
:                            TaxpayerAccounts Are Monitored to Detect
                                 Unauthorized Employee Accesses



                                                                     Appendix Ill

                             Report Distribution List

    Commissioner C
    Office of the Commissioner - Attn: Chief of Staff C
    Chief Information Officer 0S:CIO
    Chief, Mission Assurance and Security Services 0S:MA
    Chief Counsel CC
    National Taxpayer Advocate TA
    Director, Office of Legislative Affairs CL:LA
    Director, Office of Program Evaluation and Risk Analysis RAS:O
    Ofice of Management Controls 0S:CFO:AR:M
    Audit Liaisons:
           Deputy Commissioner for Operations Support OS
           Deputy Commissioner for Services and Enforcement SE
           Chief Information Officer 0S:CIO
           Chief, Mission Assurance and Security Services 0S:MA




                                                                              Page 15
                             Increased Managerial Attention Is Needed to Ensure
I
I
                                 Taxpayer Accounts Are Monitored to Detect
                                     Unauthorized Employee Accesses
--
 -  -                                              -
                                                                                                          Appendix IV

        Management's Response to the Draft Report

                                                DEPARTMENT OF THE TRLABURY                        RECEIVED
                                                   I N T E R N A L RLVLNUE S L R V l C L
                                                       W A S H I N 0 7 0 N . D.C. I D a Z 4       JuL 0 6 2006
                  cnlw
          YIO¶IO" A I W R . K P

                                                              JUL 0 6 2008




                      FROM:


                      SUBJECT:                Response to Draft Audit -port - Increased Managerial Aitention
                                              Is Needad to Ensure Taxpayer Accounts Are Monitored to Detect
                                              Unauthorkd Emplbyee Acceas (Audlt C 200520034)


                      Thank you for the opportuntty to w i e w the draft audlt report on IRS' Integrated Data
                      Reineval System Online Reports Services OORS), a web-based applicationthat
                      pmvides Integrated Data Retrieval System (IDRS) ~ecurityreporb to UnR Security
                      Representativesand managers. The IDRS k a main -6               used by IRS employees to
                      research and update taxpayer data. We appraclats that your report c m d k the IRS for
                      deploying IORS to r e d m the costs of printing and distributing paper m p k of
                      camputerqnerated IDRS audit trail mipart information.

                      The report has four mmmmendetions. We concur on three of the =port
                      recmrnendatlonsand nanconcur on the remalnlng ane mcornmcmdation Attached is
                      a detailed response outlining our corrective action plans to the recommendations.
                      Speclflcally, for recommendation #1, you addressed IRS emphasizing the review of
                      IORS reports. Actions wlll be taken to Implement a process to montor revfew
                      compliance by Business Units. In recommendation K!, you propose ellrninat~ngthe
                      certifmtlon of the monthly Security Profile Report. We do not concur, like IRS is
                      concerned that deferring the review of Security Profib Report to only quarterly periods
                      could result In a potential securtty deficiency belng u n d e k b d for an extended period of
                      Bme. Recommendation #3 addresses h e l y cerfificatlon of the reviews of IORS reports
                      and management accountability. Actlons will be taken roqulring the timely rarlew6 and
                      addressing noncompliance, the final recommendatlanaddresses contradual support
                      d IORS. This is a priorlty of the Servlce to ensure system vmknesses are corrected.
                     We appredate your continued support and valuable owtslght orra'ktancs. If you have
                     any questions, please contad me at (202) 822-8010, or Devon Bryan. Dlmclw.
                     InformatlonTechnology Security at (202) 2887271.

                     Attachment




                                                                                                                      Page 16
Increased Manageria/ Attention /s Needed to Ensure
    Taxpayer Accounts Are Monitored to Detect
        Unauthonked Employee Accesses



                                                  -
Management response to Draft Audlt Report Increased ManagerlalAttention
Is Needed to Ensure Taxpayer Accounts Ase Monitored to Detect Unauthorized
Employee Accesses (Audlt #200520034)



RECOMMENDATION1W:
The Chief, Mlsion Assurance and Securlty S e w h s , should coordinate with the
business unlts and place emphasis on the review of electronic lDRS Semrlty
Reports using the IORS system. Perkdk compliance revlews should be
conducted to ensure the business unlfs cany out their rdes and responsibiI'i
to review IDRS Security Reports.


CORRECTWE ACTION TO RECOMMENDATDN#l:
Mlsslon Assurance and Security Setvices cancurs with the recommendationand
will implement a semiannual monitoring and reporting precess that wilt determine
complianceof the business units in reviewing and certifying Integrated Data
Retrieval System (IDRS)Security reports. Business units will be advised of their
compliance.



IMPLEMENTATION DATE:
December 15.2006 (Fircrt c o m p I ' i check Is for the third and forth quarters d
M 2006)


RESPONSIBLE OFFICIAL:
Director. InformationTechnology Securtty 0S:MA:IT


CORRECTIVE ACTION MONrrORlNO PLAN:
The IDRS Security Pmgmm Omce will report monthly to the Director, IT Security,
on the prpgress of developing the applicationsand proceduresto implement a
monitoringand reparting pmcess. Also, once Implemented. all business units
that do not achieve at least a 90 percent certification rate will be required to
prwide a jutiication for the report not belng reviewad.




                                                                                     Page 17
             lncreased Managerial Attention /s Needed to Ensure
1
I                Taxpayer Accounts Are Monitored to Detect
                     Unauthorized Employee Accesses



                                                     -
    Management response to Draft AudH Report Increased ManagerialAtbention
    lo Needed to Ensure Taxpayer Accounts Am Moniio~mdto Detect Unauthorized
    Employee Accesses (Audit #200520034)



    RECOMMENDATDN #2:
    The Chief, Mbslon Assurance and Security Services, should eliminate the
    requirement to certrfythe monthly Security Profile Report to reduce managerial
    burden because the data is captured in the quarterly Security Profile Reports.


    CORRECTIVEACTlON TO RECOMMENDATION #2:
    Mission Assurance and Securtty Services does not concur wtth this
    recommendation. The Integrated Data Retrieval Systam (IDRS) Security Profile
    reports sumrnarlze user activities and capabliltles on IDRS on both a monthly
    and quarterly bas~s Deferringthe review of this report to only quartedy periods
    couid result In varlous               being uncbtectedfor extended psrbds of
    Ume. Such deficiencies would Include idenwng IDRS usen who are ~nthe
    wrong units, who need a restriction applled to their profile in accordance with IRS
    policies, or who no longer need access to IDRS. By requtring the review and
    certification of the quarterly repon, managers can better determinewhether users
    have command codes end accesses to other IDRS functlonaltty that are no
    longer needed.


    IMPLEMENTATION DATE:
    Not Applicable



    RESPONSIBLEOFFICIAL:
    Not Applfcable



    CORRECTIVE ACTION MONITORING PLAN:
    Not Applicable




                                                                                          Page 18
               TaxpayerAccounts Are Monitored to Detect
                   Unauthorized Employee Accesses




                                               -
Management r~aponseto Draft Audlt Report Increased Managerial Attention
Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
EmployeeAccesses (Audtt lP200520034)



RECOMMENDATION'#3:
The Deputy Cornmissloner for Operations Support and the Deputy Commissioner
for Services and Enforcement should ensure all buslness unit managen'
operational review requirementsare updated to indude a step to validate that all
IORS system-related reports are certified tlmely (by the manager or designee)
and to hdd the business untt managers aarxrntable for meeting their security-
related responslbllltiea


CORRECTIVE ACTION TO RECOMMENDATlON#3:
The IRS concurs with the reamunendatlon. A memo signed jointly by the Deputy
Canmisslonerfor Opwatkns Suppart end the Deputy Cammissiiner for
Services and Enforcement will be k u d to IRS Cornmisshers and Chiefs:
   (I) Requlrlngall Business Units' operational reviews to include Mlssbn
       Assurance and Security Services IORS quarterty Integrated Data Retrieval
       System (IDRS) security compliance reports.
   (2) Identifying and enfwclng consequencesfor noncompliance In reviewing
       and certifying the IDRS security wmplience reporls maintained in IORS.


IMPLEMENTATIOND A E :
December 15,2008



RESPONSIBLE OFFICIAL:
Deputy Chief, MlsslonAssurance S Security Servlces 0S:MA


CORRECTIVE ACTION MONITORING PLAN:
Mission Assurance and Security Services wlll be tracking the development d the
memo untll distrlbutlon.




                                                                                   Page 19
             Increased Managerial Attention Is Needed to Ensure
I
I                TaxpayerAccounts Are Monitored to Detect
                     Unauthorked Employee Accesses



    Mamgemmnt roeponse to Draft Audit Reporl- I n m a d ManagerialAttention
    Is Needed to Ensure Taxpayer Accounts Are Monitaredto Detect Unauthorized
    Employe Accesses (Audit #200520034)



    RECOMMENDATIONW:
    The Chief, Mlsslon Atwurance and Sewltty Sghrioes, should place priority on
    hiring a new contractor to complete development d the next version of the lORS
    system. The systemic wealalessas with the IORS system should be prlorttlzd
    and addressed withln a reasonable time period.


    CORRECTIVE ACTION TO RECOMMENDATKIN#4:
    Mission Assurance and Seczlrii Selvlcas (MABSS) concurs with this
    recommendation. W S S has placed a priority on obtaining technical support
    MA&SS is coordlnatlng and working with the Chief Information M A d s
    organ'aation to transfer the msponslbfllty of obtaining the technical m n t w t for
    the IORS system. The CIO organization will use existing wntmcUng vehlcles to
    fulfill the needed contractual support. Also. MA8rSS' IDRS Security Program
    O f f i c e wlll prioritize the systemic weaknesses of IORS and m o n k the process
    for timely lrnplernentstlonof system changes.


    IMPLEMENTATION DATE:
    November 1 5 , 2 0 6


    RESPONSIBLE OFFICIAL:
    Director, llfformationTechnology Securtty 0S:MA:IT


    CORRECTIVE AGIION MONITORING PLAN:
    The Diredor h r We IT Securlty Office will periodically monitor the progress in
    obtalning kuntrachral support and correcting IORS programming deficiencies.




                                                                                          Page 20
